No. 19-701
In the

Supreme Court of the United States
__________________
LLOYD N. JOHNSON,
v.
KAREN RIMMER, ET AL.,
__________________

Petitioner,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

__________________

BRIEF IN OPPOSITION
__________________
PAUL D. CRANLEY
Counsel of Record
TIMOTHY POSNANSKI
JOSEPH S. DIEDRICH
HUSCH BLACKWELL LLP
33 East Main Street, Suite 300
P.O. Box 1379
Madison, WI 53701-1379
608.255.4440
Paul.Cranley@huschblackwell.com
Timothy.Posnanski@huschblackwell.com

Counsel for Respondents
February 3, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS RESTATED
1. Whether a medical professional’s treatment
decision met the professional judgment standard
articulated in Youngberg v. Romeo where the
professional’s decision was based on his assessment of
the patient’s condition and upon recognized medical
and psychological practices and was supported by the
agreement of other medical professionals involved in
the patient’s care.
2. Whether a plaintiff pursuing a claim under 42
U.S.C. § 1983 must present evidence sufficient for a
reasonable jury to conclude the defendant was
personally involved in causing the constitutional
deprivation alleged.

ii
PARTIES TO THE PROCEEDINGS
Petitioner is Lloyd N. Johnson. Respondents are
David Macherey and Ade George.
Petitioner incorrectly lists three additional trial
court defendants, Thomas Harding, Remedios Azcueta,
and Tony Thrasher as parties to this proceeding.
However, Petitioner did not appeal the District Court’s
grant of summary judgment in favor of these three
Defendants. As the court below noted: “Mr. Johnson
now brings this appeal, challenging only the district
court’s decision in favor of two individual defendants:
Dr. David Macherey and Nurse Ade George.” P-App. 2a
(emphasis added). Petitioner has waived the right to
appeal the summary judgment entered in favor of any
of the other defendants. United States v. Barnes, 660
F.3d 1000, 1006 (7th Cir. 2011).

iii
TABLE OF CONTENTS
QUESTIONS RESTATED . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
COUNTERSTATEMENT OF THE CASE . . . . . . . . 1
A. Statement of Facts . . . . . . . . . . . . . . . . . . . . . 1
B. Seventh Circuit Decision Affirming Summary
Judgment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 5
REASONS FOR DENYING THE PETITION. . . . . . 6
I. The Seventh Circuit’s Application of the
Professional Judgment Standard was Entirely
Consistent with Youngberg v. Romeo and
Demonstrates no Split Among Circuits . . . . . . . . 6
A. The Court Below Properly Applied the
Youngberg Standard . . . . . . . . . . . . . . . . . . . . 6
B. There is No “Split in the Circuits” With
Respect to the Professional Judgment
Standard . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
II. The Seventh Circuit’s Decision Affirming
Summary Judgment in Favor of Nurse George is
Entirely Consistent with this Court’s Precedent
and does not Evidence a Split Among Circuits . . . 12
A. Petitioner Failed to Establish a Record
Sufficient to Support a Constitutional Claim
Against Nurse George . . . . . . . . . . . . . . . . . . 12

iv
B. There is No Circuit Split over the Personal
Involvement Requirement for § 1983 Claims . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

v
TABLE OF AUTHORITIES
CASES
Ammons v. Washington Dep’t of Soc. and Health
Servs., 648 F.3d 1020 (9th Cir. 2011) . . . . . . . . 10
Burley v. Gagacki,
729 F.3d 610 (6th Cir. 2013). . . . . . . . . . . . . . . . 12
Colbert v. City of Chicago,
851 F.3d 649 (7th Cir. 2017). . . . . . . . 5, 12, 13, 15
Collignon v. Milwaukee Cty.,
163 F.3d 982 (7th Cir. 1998). . . . . . . . . . . . . . . 7, 8
Davis v. Hill,
173 F. Supp. 2d 1136 (D. Kan. 2001) . . . . . . 15, 16
Dodds v. Richardson,
614 F.3d 1185 (10th Cir. 2010). . . . . . . . . . . 12, 16
Estate of Cole by Pardue v. Fromm,
94 F.3d 254 (7th Cir. 1996). . . . . . . . . . . . . . . . 8, 9
Estate of Porter by Nelson v. State of Ill.,
36 F.3d 684 (7th Cir. 1994). . . . . . . . . . . . . . . . . 11
Jones v. Williams,
297 F.3d 930 (9th Cir. 2002). . . . . . . . . . 12, 14, 15
Jutrowski v. Twp. of Riverdale,
904 F.3d 280 (3d Cir. 2018) . . . . . . . . . . . . . . . . 12
King v. Kramer,
680 F.3d 1013 (7th Cir. 2012). . . . . . . . . . . . . . . . 8
Kulak v. City of New York,
88 F.3d 63 (2d Cir. 1996) . . . . . . . . . . . . . . . . . . 11

vi
Lapides v. Bd. of Regents of Univ. Sys. of Georgia,
535 U.S. 613 (2002). . . . . . . . . . . . . . . . . . . . . . . 11
Mitchell v. Washington,
818 F.3d 436 (9th Cir. 2016). . . . . . . . . . . . . . . . 10
Patten v. Nichols,
274 F.3d 829 (4th Cir. 2001). . . . . . . . . . . . . . . . . 9
Petties v. Carter,
836 F.3d 722 (7th Cir. 2016). . . . . . . . . . . . . . . . . 5
Rasho v. Elyea,
856 F.3d 469 (7th Cir. 2017),
reh’g denied (May 5, 2017) . . . . . . . . . . . . . . . . . . 8
Rutherford v. City of Berkeley,
780 F.2d 1444 (9th Cir. 1986). . . . . . . . . . . . 14, 15
Sain v. Wood,
512 F.3d 886 (7th Cir. 2008). . . . . . . . . . . . . . . . . 8
Segal v. Los Angeles Cty.,
852 F.2d 1290, 1988 WL 79481 (9th Cir. 1988) . 15
Shaw by Strain v. Strackhouse,
920 F.2d 1135 (3d Cir. 1990) . . . . . . . . . . . . . . . 11
Smith v. Delamaid,
842 F. Supp. 453 (D. Kan. 1994) . . . . . . . . . 15, 16
Soc’y for Good Will to Retarded Children, Inc. v.
Cuomo, 737 F.2d 1239 (2d Cir. 1984). . . . . . . . . . 9
Wilson v. Montano,
715 F.3d 847 (10th Cir. 2013). . . . . . . . . . . . . . . 16

vii
Youngberg v. Romeo,
457 U.S. 307, 102 S. Ct. 2452 (1982) . . . . . passim
STATUTES
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . passim
Wis. Stat. § 51.15 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
COUNTERSTATEMENT OF THE CASE
The fact-driven nature of this case and Petitioner’s
incomplete and inaccurate statement of the facts
require this Counterstatement of the Case.
A. Statement of Facts
On March 8, 2012, Lloyd Johnson was involuntarily
admitted to the Milwaukee County Mental Health
Complex (“MHC”) on an emergency detention,
pursuant to Wis. Stat. § 51.15. Petitioner’s Appendix
(“P-App.”) 3a-4a. Johnson was assigned to a private
room in the Intensive Treatment Unit (“ITU”), a locked
area of the MHC designed for high risk psychiatric
patients. Id.
The morning after Johnson arrived at MHC, he was
seen by Dr. Macherey, a psychologist and Treatment
Director for the ITU, for an initial evaluation. P-App.
4a-5a. Based on his assessment, Dr. Macherey ordered
Johnson placed on 1:1 observation, which required
direct observation by an assigned staff member at all
times. Id. Dr. Thomas Harding, a psychiatrist and
Medical Director of MHC, also examined Johnson and
concurred with Dr. Macherey’s assessment. P-App. 5a.
On Thursday, March 15, 2012, Dr. Macherey and
Dr. Harding held a recovery planning conference with
Johnson and the entire treatment team, including a
registered nurse, a social worker, and an occupational
therapist involved in his care. P-App. 6a-7a. Based on
the team assessment, Dr. Macherey concluded that
Johnson’s condition was improving, but he nonetheless
ordered that Johnson remain on 1:1 observation. PApp. 7a.

2
On Friday, March 16, 2012, Dr. Macherey again
assessed Johnson and observed that Johnson appeared
to be stabilizing and his symptoms appeared to be
decreasing over the course of his treatment at the
MHC. P-App. 8a. At approximately 3:00 p.m. on the
afternoon of March 16, 2012, Dr. Macherey
discontinued 1:1 observation status. P-App. 9a. In Dr.
Macherey’s clinical judgment as a psychologist,
Johnson’s condition had improved to the point that 1:1
observation was no longer required. Id. Each member
of the treatment team, including Dr. Harding, agreed
with Dr. Macherey’s decision. P-App. 9a.
MHC staff continued to closely monitor Johnson,
checking on him every 15 minutes, as well as
conducting “change of shift rounds” several times per
day and “environmental rounds” twice per shift. P-App.
10a-11a. At approximately 4:00 p.m. on March 18,
2012, Johnson approached the nursing station to
inform the staff he had just severed his penis with a
pair of scissors. P-App. 12a. He was immediately
treated and taken to Froedtert Hospital for surgery. Id.
Following Johnson’s self-injury, the Critical
Incident Committee of the Medical Staff at the MHC
conducted a root cause analysis, culminating in a
written report of the events surrounding the incident.
P-App. 12a-16a. Administrators at the MHC also
conducted a unit-level investigation known as a
“program review” of Johnson’s self-injury. Id. Neither
investigation was able to determine how Johnson
obtained the scissors he used to injure himself. Id.
In his complaint, Johnson alleged that Dr.
Macherey violated his substantive due process rights

3
by removing him from 1:1 observation prematurely. PApp. 16a. Petitioner offered testimony from an expert
witness, Dr. Dunn, who testified that Petitioner should
have remained on 1:1. P-App. 9a n. 18. Dr. Dunn also
testified that: 1) there are no established standards for
when to remove a patient from 1:1 observation; 2) the
use of 1:1 can be harmful to patients over time; and 3)
the decision to remove a patient from 1:1 is a legitimate
course of treatment. P-App. 9a-10a n. 18.
Petitioner further alleged that his substantive due
process rights were violated because a nurse must have
left the scissors in his room. P-App. 18a. Petitioner
identified several nurses he believed may have been
responsible, including Nurse Ade George. P-App. 18a.
The evidence showed that Nurse George was the last
person to change Johnson’s dressings, although he was
seen by other MHC staff thereafter. Id. Nurse George
testified she did not change Johnson’s bandages in his
room and did not even use scissors because she applied
self-adhesive bandages that did not need to be cut. PApp. 11a n. 22.
On this record, the defendants moved for summary
judgment. The district court granted the motion,
entering judgment in favor of all defendants on all of
Petitioner’s claims. P.-App. 17a-19a.

4
B. Seventh Circuit Decision
Summary Judgment

Affirming

Petitioner appealed as to only two defendants, Dr.
Macherey and Nurse George. P-App. 2a. The Seventh
Circuit affirmed summary judgment as to both
defendants.
With regard to Dr. Macherey, the Seventh Circuit
applied the standard set forth in Youngberg v. Romeo,
457 U.S. 307, 102 S. Ct. 2452 (1982), holding that Dr.
Macherey could only be held liable under § 1983 if his
decision to remove Johnson from 1:1 observation was
“such a substantial departure from accepted
professional judgment, practice or standards as to
demonstrate that [Dr. Macherey] actually did not base
the decision on such a judgment.” P-App. 22a, quoting
Youngberg, 457 U.S. at 323.
After an exhaustive consideration of the facts, the
court concluded:
Considering Mr. Johnson’s documented
improvement, the consensus of his treatment
team that removing him from 1:1 observation
was appropriate, and the recognition [by
Petitioner’s own expert] that, at some point, 1:1
care is too restrictive for the patient, a
reasonable factfinder could not find that no
minimally competent doctor would have made
the same decision.
P-App. 29a. The court further noted that “evidence that
some medical professionals would have chosen a
different course of treatment is insufficient to make out

5
a constitutional claim.” Id. at 29a-30a, quoting Petties
v. Carter, 836 F.3d 722, 729 (7th Cir. 2016).
With regard to Nurse George, the Seventh Circuit
concluded that the evidence failed to support
Petitioner’s claim, holding that “on the basis of the
record made in the district court, no reasonable
factfinder could determine that Nurse George, as
opposed to another treating nurse, left the scissors that
Mr. Johnson eventually used.” P-App. 30a. The court,
therefore, affirmed the district court’s decision, holding
that the evidence submitted by Petitioner failed to
establish Nurse George’s “personal involvement in the
alleged constitutional deprivation.” P-App. 31a, quoting
Colbert v. City of Chicago, 851 F.3d 649, 657 (7th Cir.
2017).
SUMMARY OF THE ARGUMENT
This is a fact-intensive case that was correctly
decided on the application of uncontroversial and wellestablished precedent; this Court’s intervention is not
required. The Seventh Circuit’s application of the
professional judgment standard provides no basis for
this Court to grant certiorari because it conforms to
this Court’s precedent and is not at odds with any other
circuit court. Additionally, the Seventh Circuit’s
decision affirming the dismissal of Petitioner’s claims
against Nurse George was based upon the Petitioner’s
failure to establish a sufficient evidentiary basis to
demonstrate Nurse George’s personal involvement in
the alleged constitutional deprivation. There is no basis
to grant certiorari because the law applied by the
Seventh Circuit is in harmony with all other circuits.
The Petition for a Writ of Certiorari should be denied.

6
REASONS FOR DENYING THE PETITION
I. The Seventh Circuit’s Application of the
Professional Judgment Standard was Entirely
Consistent with Youngberg v. Romeo and
Demonstrates no Split Among Circuits.
A. The Court Below Properly Applied the
Youngberg Standard.
In Youngberg v. Romeo, the Supreme Court
established the standard for determining whether a
professional, acting on behalf of the government, has
adequately protected the rights of involuntarily
committed persons. 457 U.S. at 321-23. The Supreme
Court reasoned that a decision, “if made by a
professional, is presumptively valid.” Id. at 323. Thus,
the Court held that “liability may be imposed only
when the decision by the professional is such a
substantial departure from accepted professional
judgment, practice, or standards as to demonstrate
that the person responsible actually did not base the
decision on such a judgment.” Id. To ensure that this
standard has been met, therefore, courts must “make
certain that professional judgment in fact was
exercised.” Id. at 321.
The Youngberg Court distinguished the professional
judgment standard applicable to involuntarily
committed persons from the deliberate indifference
standard applicable to convicted prisoners. Id. at 312,
n.11, 321-322. The Court did not quantify the
difference, but noted that “[p]ersons who have been
involuntarily committed are entitled to more
considerate treatment and conditions of confinement

7
than criminals whose conditions of confinement are
designed to punish.” Id. at 321-322.
Here, the Seventh Circuit faithfully applied the
professional judgment standard to evaluate the care
provided to Petitioner. The court explained:
[D]etermining that Dr. Macherey or Nurse
George violated Mr. Johnson’s substantive due
process rights requires the more specific
professional judgment standard, which applies
to professionals like physicians, psychiatrists,
and nurses within their area of professional
expertise. We have been clear that this standard
asks whether the medical professional
substantially departed from accepted
professional standards.
P-App.23a, n.43 (quoting Collignon v. Milwaukee Cty.,
163 F.3d 982, 988 (7th Cir. 1998)) (emphasis added).
Applying this standard, the Seventh Circuit
properly found that Dr. Macherey’s decision to remove
Johnson from 1:1 observation was not a substantial
departure from accepted professional standards. Dr.
Macherey made a professional judgment based upon
his review of the appropriate medical considerations,
which is precisely what Youngberg requires. The record
clearly supports this conclusion. Dr. Harding agreed
with Dr. Macherey’s assessment that Petitioner had
demonstrated enough improvement to be removed from
1:1 observation, and the other members of the
Petitioner’s treatment team concurred. Further,
Petitioner’s own expert admitted that: (1) 1:1
observation is intrusive and can be harmful to the

8
patient; (2) there are no established standards in the
field of psychiatry for the use of 1:1 observation, and
(3) removing a person from 1:1 care is a legitimate
course of treatment.
The court below thus adhered to Supreme Court
and Seventh Circuit precedent, which require applying
the Youngberg standard to cases involving
involuntarily committed persons. The Seventh Circuit
has also extended this standard to cases alleging
inadequate medical care of convicted persons, entitling
criminals to the same “more considerate treatment”
required for the involuntarily committed. See
Collignon, 163 F.3d at 988. In Collignon, the court held
that “in the context of a claim for inadequate medical
care,” the professional judgment standard, as
articulated in Youngberg, applies both to convicted
persons under the Eighth Amendment and to pretrial
detainees or involuntarily committed persons under the
Fourteenth Amendment. Id. at 989.
Following Collignon, the Seventh Circuit has
consistently applied the Youngberg professional
judgment standard to both involuntary commitment
cases (as it did in this case) and convicted prisoner
cases where the defendant is a medical professional.
See, e.g., Sain v. Wood, 512 F.3d 886, 894–95 (7th Cir.
2008) (applying Youngberg standard in an involuntary
commitment case); and see Rasho v. Elyea, 856 F.3d
469, 476 (7th Cir. 2017), reh’g denied (May 5, 2017)
(applying same standard in convicted prisoner case
involving medical professional); see also King v.
Kramer, 680 F.3d 1013, 1018–19 (7th Cir. 2012)
(quoting Estate of Cole by Pardue v. Fromm, 94 F.3d

9
254, 261–62 (7th Cir. 1996)) (same). In doing so, the
Seventh Circuit has not diminished the professional
judgment standard when evaluating involuntary
commitment cases.
The Seventh Circuit did not depart from Youngberg
whatsoever. Accordingly, there is no reason for the
Court to revisit this issue; this Court should reject the
petition.
B. There is No “Split in the Circuits” With
Respect to the Professional Judgment
Standard.
There is no conflict among the circuits requiring
this Court’s intervention. The Seventh Circuit’s
statement that a plaintiff can demonstrate the absence
of professional judgment by proving “no minimally
competent professional” would have reached the same
decision as the defendant is entirely consistent with
Youngberg. It is also consistent with the other circuits
Petitioner invokes to demonstrate the alleged circuit
split, all of which use similar reasoning. See Soc’y for
Good Will to Retarded Children, Inc. v. Cuomo, 737
F.2d 1239, 1247-49 (2d Cir. 1984) (Expert testimony
failed to establish the defendant’s treatment decision
did not meet “minimally accepted standards across the
profession,” and thus plaintiff failed to prove the
chosen treatment was such a “substantial departure
from prevailing standards of practice” that it could be
said the defendant did not, in fact, exercise professional
judgment.) Patten v. Nichols, 274 F.3d 829, 845 (4th
Cir. 2001) (The professional judgment standard
requires showing “that the choice in question was not
a sham or otherwise illegitimate;” consequently, the

10
standard is met where “the defendants’ conduct had
some basis in accepted professional opinion.”) Mitchell
v. Washington, 818 F.3d 436, 443–44 (9th Cir. 2016)
(Evidence that defendant physician did not follow “the
preferred treatment course” for plaintiff’s condition was
insufficient “to rebut the Youngberg professional
judgement standard,” and summary judgment for the
defendant was affirmed.)
Petitioner nevertheless claims there is a circuit split
between the Seventh and Ninth Circuits, based on the
latter’s decision in Ammons v. Washington Dep’t of
Social and Health Servs., 648 F.3d 1020 (9th Cir.
2011). In Ammons, the Ninth Circuit interpreted the
professional judgment standard to require medical
professionals “take adequate steps in accordance with
professional standards to prevent harm from
occurring.” Id. at 1030. This statement mirrors the
Seventh Circuit’s observation below, which asks
“whether the medical professional substantially
departed from accepted professional standards.” PApp.23a (n.43). Whether phrased in the affirmative
(“adequate steps in accordance”) or the negative
(“substantially departed from”), the two expressions
are consistent and articulate the same substantive
standard. Further, like all of the cases Petitioner cites
in support of his imagined circuit split, the Ammons
court ultimately based its conclusion on the
uncontroversial language of Youngberg, asking whether
the defendant had failed to exercise professional
judgment. Ammons, 648 F.3d at 1034; P-App.22a.
Similarly, there is no split between the Seventh
Circuit and the Second or Third Circuits, which

11
generally compare the professional judgment standard
to gross negligence or recklessness. See Shaw by Strain
v. Strackhouse, 920 F.2d 1135, 1146 (3d Cir. 1990)
(stating the professional judgment standard “closely
approximates—[but] remains somewhat less
deferential than—a recklessness or gross negligence
standard”); Kulak v. City of New York, 88 F.3d 63, 75
(2d Cir. 1996) (professional judgment standard
“requires more than simple negligence on the part of
the doctor but less than deliberate indifference”); see
also Pet.6, 8 (relying on Shaw and Kulak to claim a
circuit split). The Kulak court cites and relies upon the
Seventh Circuit for the very proposition Petitioner
claims differentiates the two circuits. Kulak, 88 F.3d at
75, citing Estate of Porter by Nelson v. State of Ill., 36
F.3d 684 (7th Cir. 1994), abrogated on other grounds
by Lapides v. Bd. of Regents of Univ. Sys. of Georgia,
535 U.S. 613 (2002). Likewise, in Estate of Porter, the
Seventh Circuit explicitly adopts the same reasoning
Petitioner claims divides the Seventh and Third
Circuits: “We agree with the Third Circuit . . . that
[p]rofessional judgment, like recklessness and gross
negligence, generally falls somewhere between simple
negligence and intentional misconduct.” Estate of
Porter by Nelson, 36 F.3d at 688, citing Shaw, 920 F.2d
at 1146.
There is no split in the circuits regarding
application of the professional judgment standard that
should be resolved by the Court. The petition should be
denied.

12
II. The Seventh Circuit’s Decision Affirming
Summary Judgment in Favor of Nurse George
is Entirely Consistent with this Court’s
Precedent and does not Evidence a Split
Among Circuits.
A. Petitioner Failed to Establish a Record
Sufficient to Support a Constitutional
Claim Against Nurse George.
The requirement that a plaintiff establish
individual liability to proceed with an action under
§ 1983 is neither controversial nor unique to the
Seventh Circuit. See P-App. 31a, citing Colbert, 851
F.3d at 657; see also Jutrowski v. Township of
Riverdale, 904 F.3d 280, 289 (3d Cir. 2018) (“[T]he
tenet that a defendant’s § 1983 liability must be
predicated on his direct and personal involvement in
the alleged violation has deep historical roots in tort
law principles, is manifest in our excessive force
jurisprudence, and is reinforced by persuasive
authority from our Sister Circuits.”); Burley v. Gagacki,
729 F.3d 610, 619 (6th Cir. 2013) (“To establish liability
against an individual defendant acting under color of
state law, a plaintiff must show that the defendant was
‘personally involved’ in the use of excessive force.”);
Jones v. Williams, 297 F.3d 930, 935 (9th Cir. 2002)
(“[A] plaintiff could not hold an officer liable because of
his membership in a group without a showing of
individual participation in the unlawful conduct.”);
Dodds v. Richardson, 614 F.3d 1185, 1195 (10th Cir.
2010) (“individual liability under § 193 must be based
on personal involvement in the alleged constitutional
violation”).

13
Petitioner failed to establish Nurse George’s
personal involvement in the alleged constitutional
deprivation. Colbert, 851 F.3d at 657. In the district
court, Petitioner maintained that any one of three
individuals may have left the scissors in his bathroom:
Nurse George, Nurse Azcueta, or Nurse Plum.1 P-App.
31a. He never took the position that there was
sufficient evidence from which a jury could conclude
that Nurse George was personally responsible. Id.
Instead, he argued that the district court should infer
that a nurse left the scissors in his bathroom and
asserted, simultaneously, that Nurse George or Nurse
Azcueta or Nurse Plum left the scissors. Id. The district
court found, and the Seventh Circuit agreed, that
evidence suggesting that one of several individuals may
have left the scissors is insufficient to establish the
individual liability of Nurse George under § 1983. Id.
On appeal, Petitioner abandoned his district court
argument and voluntarily chose to pursue only Nurse
George, despite having conceded before the district
court that he could not determine which of the three
nurses left the scissors in his bathroom. Accordingly,
based on the record made by Petitioner, the Seventh
Circuit held that no reasonable fact finder could
determine that Nurse George was the individual
responsible for his injury. Id.
In reaching this decision, the court below was not
breaking any new ground. Petitioner failed to come

1

Nurse Plum was never a defendant in this case and Petitioner did
not appeal the summary judgment entered in favor of Nurse
Azcueta.

14
forth with evidence from which a jury could decide that
Nurse George was the party responsible for his injury.
Reviewing these facts against well-established legal
principles, the court correctly held that the evidence
was simply insufficient to support Petitioner’s claim.
There is no reason for this Court to reconsider that
decision.
B. There is No Circuit Split over the Personal
Involvement Requirement for § 1983
Claims.
The Seventh Circuit’s approach to individual
liability under § 1983 is entirely consistent with Ninth
Circuit case law. Petitioner relies on Rutherford v. City
of Berkeley, 780 F.2d 1444 (9th Cir. 1986) to imply that
a defendant’s personal involvement need not be proven
under Ninth Circuit precedent. But Petitioner omits
any reference to that circuit’s subsequent, and
controlling, decision in Jones v. Williams, which
substantially constrains Rutherford. See Jones, 297
F.3d at 935.
In Jones, the plaintiff relied on Rutherford to argue
she was entitled to the following jury instruction:
When a plaintiff cannot specifically state which
defendant police officers engaged in an
unreasonable search of a plaintiff’s residence,
but there is evidence to specify that certain
defendants were among the police officers who
were inside plaintiff’s residence, and the officers
agree they are among the officers who were
present, the jury can reasonably infer that the

15
named officers were participants in the alleged
unlawful conduct.
Id. at 935. The court rejected the instruction as
“swe[eping] too broadly” and “tak[ing] the holding of
Rutherford to an extreme [it] did not intend.” Id. at
935–36.
Clarifying Rutherford’s holding, the Ninth Circuit
stressed that a jury cannot “find against the defendants
without finding that they had some personal
involvement” or find liability without “evidence that
identified any particular officer . . . .” Id. at 935–36
(emphasis added). The court instead requires evidence
of “individual participation, not simply being present or
being a member of a team . . . .” Id. at 937. After Jones,
then, the Ninth Circuit’s standard is entirely consistent
with the Seventh Circuit’s. See P-App.31a (quoting
Colbert, 851 F.3d at 657) (requiring “personal
involvement in the alleged constitutional deprivation.”).
Petitioner next cites an unpublished decision, Segal
v. Los Angeles Cty., 852 F.2d 1290, 1988 WL 79481 (9th
Cir. 1988), which, like the Rutherford decision on which
it relies, predates Jones. Segal, 1988 WL 79481 at *1.
Accordingly, Petitioner’s reliance on Segal fails for the
same reason his reliance on Rutherford fails.
Beyond Rutherford and Segal, Petitioner’s only
other offerings are two cases from the District of
Kansas, in the Tenth Circuit, Davis v. Hill, 173 F.
Supp. 2d 1136, 1144 (D. Kan. 2001) and Smith v.
Delamaid, 842 F. Supp. 453, 460 (D. Kan. 1994). The
Tenth Circuit, however, is in accord with the Seventh
and Ninth Circuits in requiring a plaintiff to prove a

16
defendant’s personal involvement in the alleged
constitutional violation to establish individual liability
under § 1983. See Dodds, 614 F.3d at 1195; Wilson v.
Montano, 715 F.3d 847, 854 (10th Cir. 2013).
Further, Davis and Smith actually support the
personal involvement requirement for § 1983 claims.
Both were excessive force cases in which the plaintiffs
could not identify which police officers beat them. The
courts acknowledged the officers’ mere presence at the
scene was insufficient to support a claim for use of
excessive force. Davis,173 F. Supp. 2d at 1143 (“It is
well established that for individual liability under
§ 1983 to attach, a defendant must personally
participate in the alleged deprivation”); Smith, 842
F. Supp. at 459 (plaintiff had no claim for excessive
force because he could not identify which officer hit
him). However, because officers have a duty to
intervene to prevent excessive use of force, evidence of
their presence at the time of the beating was found
sufficient to support a claim for failure to intervene.
Davis at 1143; Smith at 459. Petitioner has no similar
claim against Nurse George, and evidence of her
personal involvement was required.
Accordingly, Petitioner has failed to demonstrate
any split in the circuits that should be resolved by the
Court. The petition should be denied.

17
CONCLUSION
The Petition for a Writ of Certiorari should be
denied.
Respectfully submitted,
PAUL D. CRANLEY
Counsel of Record
TIMOTHY POSNANSKI
JOSEPH S. DIEDRICH
HUSCH BLACKWELL LLP
33 East Main Street, Suite 300
P.O. Box 1379
Madison, WI 53701-1379
608.255.4440
Paul.Cranley@huschblackwell.com
Timothy.Posnanski@huschblackwell.com
Counsel for Respondents

